TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Private Collection Agencies Adequately
                            Protected Taxpayer Data



                                          March 26, 2008

                              Reference Number: 2008-20-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 26, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Private Collection Agencies Adequately Protected
                             Taxpayer Data (Audit # 200820021)

 This report presents the results of our review to determine whether private collection agencies
 (hereafter referred to as PCAs or contractors) were adequately protecting taxpayer data at the
 time of our review. This review was included in the Treasury Inspector General for Tax
 Administration Fiscal Year 2008 Annual Audit Plan and was part of the Information Systems
 Programs business unit’s statutory requirements to annually review the adequacy and security of
 IRS technology.

 Impact on the Taxpayer
 The Internal Revenue Code authorizes the Internal Revenue Service (IRS) to enter into contracts
 with PCAs to assist in the collection of delinquent Federal Government tax liabilities. Our
 review found that taxpayer data provided to the PCAs under these contracts were adequately
 protected during transmission from the IRS and while stored on PCA computer systems.
 Inadequate security controls over taxpayer data provided to PCAs would create increased risks of
 unauthorized access, misuse, disclosure, modification, or destruction of taxpayer data.

 Synopsis
 Currently, the IRS has contracts with two PCAs to assist in the collection of delinquent Federal
 Government tax liabilities. As of February 2008, nearly 98,000 accounts had been provided to
 these contractors for resolution, representing more than $911 million. Under the terms of their
                                        Private Collection Agencies Adequately
                                               Protected Taxpayer Data



contracts with the IRS, PCAs must ensure that their computer systems are compliant with the
Federal Information Security Management Act of 20021 and adhere to National Institute of
Standards and Technology guidance. The National Institute of Standards and Technology’s
Recommended Security Controls for Federal Information Systems (Special Publication 800-53)
outlines
17 families of computer security controls that should be implemented. These control families
include systems and communication protection, access controls, and audit records.
We reviewed the computer security controls over taxpayer data provided to the two current
PCAs and determined that the controls were adequate. In particular, files were securely
transmitted from the IRS to the contractors and adequately secured on the contractors’ systems.
In addition, workstations used by contractor collection personnel were adequately controlled to
prevent unauthorized copying of taxpayer information to removable media or transfer via email.
The contractors also maintained adequate audit trails and performed periodic reviews, including
reviews to identify unauthorized access to taxpayer data. We also identified best practices that
should be considered by current and future PCAs to strengthen computer security controls.

Response
We made no recommendations in this report and, therefore, did not require a formal written
response from the IRS. However, key IRS management officials reviewed the report prior to
issuance and agreed with the results of our review.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Information Systems Programs), at (202) 622-8510.




1
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                   2
                                          Private Collection Agencies Adequately
                                                 Protected Taxpayer Data




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Private Collection Agencies Implemented Adequate Security Controls
          Over Taxpayer Data......................................................................................Page 2

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 4
          Appendix II – Major Contributors to This Report ........................................Page 6
          Appendix III – Report Distribution List .......................................................Page 7
          Appendix IV – Treasury Inspector General for Tax Administration
          Audit Reports on the Private Debt Collection Program................................Page 8
                   Private Collection Agencies Adequately
                          Protected Taxpayer Data




                        Abbreviations

IRS               Internal Revenue Service
PCA; contractor   Private collection agency
                                    Private Collection Agencies Adequately
                                           Protected Taxpayer Data




                                            Background

The Internal Revenue Code authorizes the Internal Revenue Service (IRS) to enter into contracts
with private collection agencies (hereafter referred to as PCAs or contractors) to assist in the
collection of delinquent Federal Government tax liabilities. Currently, the IRS has contracts
with two PCAs to assist in this effort: Pioneer Credit Recovery, Inc. in Perry, New York; and
The CBE Group, Inc. in Waterloo, Iowa. As of February 2008, the IRS had provided nearly
98,000 accounts to these contractors for resolution, representing more than $911 million.
Under the terms of their contracts with the IRS, PCAs must ensure that their computer systems
are compliant with the Federal Information Security Management Act of 2002.1 To meet this
requirement, the contractors must implement and adhere to National Institute of Standards and
Technology2 guidance. The IRS also evaluates the integrity of a contractor’s computer systems
to ensure that appropriate access controls are in place to protect taxpayer data.
The taxpayer data provided by the IRS to the PCAs for use in collecting delinquent taxes include
Social Security Numbers, names, addresses, and tax liability amounts. Due to the sensitivity of
these data, it is paramount that strong measures are implemented to protect taxpayer information.
Inadequate security controls over taxpayer data provided to contractors would create increased
risks of unauthorized access, misuse, disclosure, modification, or destruction of taxpayer data.
We focused on the security controls over the transmission of data between the IRS and the
contractors and the computer security controls used by the contractors to protect taxpayer
data. This review was performed in the Small Business/Self-Employed Division in
New Carrollton, Maryland, and the contractor worksites in Perry, New York, and
Waterloo, Iowa, during the period December 2007 through February 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
 Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
2
 The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
                                                                                                          Page 1
                                  Private Collection Agencies Adequately
                                         Protected Taxpayer Data




                                    Results of Review

Private Collection Agencies Implemented Adequate Security Controls
Over Taxpayer Data
The National Institute of Standards and Technology’s Recommended Security Controls for
Federal Information Systems (Special Publication 800-53) outlines 17 families of security
controls that should be implemented in Federal Government computer systems. These control
families include systems and communication protection, access controls, and audit records.
Under the terms of their contracts with the IRS, PCAs are required to comply with National
Institute of Standards and Technology guidelines.
We reviewed the computer security controls over taxpayer data provided to the two current
PCAs and determined that the controls were adequate to protect taxpayer data during
transmission to the contractors and while stored on the contractors’ computer systems.
Specifically:
    •   The contractors securely obtained files from the IRS through the IRS Registered User
        Portal. Access to this Portal was limited to two users at each PCA who used their own
        Portal user account to download the files to the contractor systems.
    •   Files downloaded from the IRS were adequately secured on contractor systems. Each
        contractor had appropriately restricted access to the downloaded files to only those
        employees who needed to use the files in the performance of their duties.
    •   The contractors configured workstations used by their collection personnel to prevent
        copying files to the workstation or removable media. Collection personnel also did not
        have access to email. By using web-filtering software, the collectors’ Internet access was
        limited to only a few sites they needed for locating taxpayer addresses and phone
        numbers. Printing was limited and printouts were adequately secured to prevent
        unauthorized removal.
    •   PCA user accounts we reviewed had the appropriate authorizations for access to
        contractor systems.
    •   All contractor employees hired within the last 6 months had completed background
        investigations. Because our March 2007 report3 found that background investigations


3
 The Private Debt Collection Program Was Effectively Developed and Implemented, but Some Follow-up Actions
Are Still Necessary (Reference Number 2007-30-066, dated March 27, 2007).
                                                                                                     Page 2
                                     Private Collection Agencies Adequately
                                            Protected Taxpayer Data



        were adequately completed, we limited the scope of this review to the 6-month period
        prior to our site visits.
    •   Contractor collection and other employee access to the collection application were
        determined to be appropriate and based on business need.
    •   The contractors maintained adequate audit trails and performed periodic reviews,
        including reviews to identify unauthorized access to taxpayer data.
    •   The contractors do not delete taxpayer files or remove them from their systems once a
        case has been closed or recalled by the IRS, per the terms of their contracts. However,
        the contractors adequately protected these data by restricting access to taxpayer data files
        to only necessary employees. In addition, both contractors’ computer applications
        categorized closed or recalled taxpayer cases to restrict their access to authorized
        managers and supervisors.
In addition, each contractor implemented a best practice that should be considered by current and
future PCAs.
    •   One contractor requires a second password, in addition to a standard username and
        password, before access to the contractor’s collection application is granted. This second
        password is generated through a password token device, small enough to fit on a key
        ring, which generates and displays a new password every 60 seconds. Each user
        accessing the contractor’s application is given a device, which is synchronized with a
        secure server.
    •   The other contractor places files downloaded from the IRS on a dedicated server.
The PCAs also took steps to address control weaknesses identified in the March 2007 Treasury
Inspector General for Tax Administration report previously cited and in IRS Safeguard reviews.
We reviewed the weaknesses listed on their Plan of Actions and Milestones4 and determined the
contractors took appropriate actions to address the weaknesses. See Appendix IV for a list of all
Treasury Inspector General for Tax Administration reports on the IRS private debt collection
program.




4
 A Plan of Actions and Milestones is a management tool used to assist organizations in identifying, assessing,
prioritizing, and monitoring the progress of corrective actions for security weaknesses found in programs and
systems.
                                                                                                             Page 3
                              Private Collection Agencies Adequately
                                     Protected Taxpayer Data



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether PCAs were adequately protecting
taxpayer data at the time of our review. To accomplish this objective, we:
I.     Determined whether taxpayer data are transmitted securely between the IRS and the
       PCAs.
       A. Identified security requirements for the transmission of taxpayer data from sources
          such as the Internal Revenue Manual, National Institute of Standards and Technology
          guidance, and PCA contract documentation.
       B. Assessed the adequacy of controls over the transmission of taxpayer data between the
          IRS and the contractors.
       C. Identified the reasons for inadequacy of data transmission controls.
       D. Assessed the impact of inadequate control weaknesses on privacy and security of
          taxpayer data transmitted to and from the contractors.
II.    Determined whether taxpayer data residing on PCA computer systems are secure.
       A. Identified security requirements for taxpayer data maintained on computer systems
          from sources such as the Internal Revenue Manual, National Institute of Standards
          and Technology guidance, and PCA contract language.
       B. Determined whether vulnerabilities identified in previous Treasury Inspector General
          for Tax Administration and IRS security reviews had been adequately addressed.
       C. Assessed the adequacy of data security controls over taxpayer data on PCA systems.
          Tests included assessing whether contractor employee access to taxpayer data was
          authorized and appropriate and evaluating the effectiveness of the contractors’ audit
          trail management for systems maintaining taxpayer data. We also assessed the
          adequacy of background investigations for employees that were hired in the 6-month
          period prior to our site visits to the contractor worksites.
       D. Identified the reasons for inadequacy of data security controls.
       E. Assessed the impact of inadequate control weaknesses on privacy and security of
          taxpayer data residing at the PCAs.




                                                                                          Page 4
                               Private Collection Agencies Adequately
                                      Protected Taxpayer Data



III.   Determined whether taxpayer data are appropriately disposed of after use by the PCAs.
       A. Identified security requirements for the destruction of taxpayer data from sources
          such as the Internal Revenue Manual, National Institute of Standards and Technology
          guidance, and PCA contract language.
       B. Assessed the adequacy of controls over destruction of taxpayer data on contractor
          systems.
       C. Identified the reasons for inadequacy of data destruction controls.
       D. Assessed the impact of inadequate control weaknesses on privacy and security of
          taxpayer data residing at the contractors’ sites once the data are no longer needed.




                                                                                            Page 5
                             Private Collection Agencies Adequately
                                    Protected Taxpayer Data



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michael Howard, Audit Manager
Richard Borst, Senior Auditor
Myron Gulley, Senior Auditor
Louis Lee, Senior Auditor
Thomas Nacinovich, Senior Auditor




                                                                                         Page 6
                             Private Collection Agencies Adequately
                                    Protected Taxpayer Data



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Collection, Small Business/Self-Employed Division SE:S:C
Project Director, Filing and Payment Compliance Modernization, Small Business/Self-Employed
Division SE:S:C:FPCMO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 7
                              Private Collection Agencies Adequately
                                     Protected Taxpayer Data



                                                                               Appendix IV

 Treasury Inspector General for Tax Administration
Audit Reports on the Private Debt Collection Program

The Treasury Inspector General for Tax Administration has issued the following reports on the
IRS private debt collection program:
1. Management Needs to Continue Monitoring Some Case Selection Issues As the Private Debt
   Collection Program Is Implemented (Reference Number 2006-30-064, dated
   April 2006).
2. The Revised Private Debt Collection Request for Quotation Adequately Addressed Prior
   Deficiencies in the Solicitation Methodology (Reference Number 2006-10-078, dated
   April 2006).
3. The Private Debt Collection Program Was Effectively Developed and Implemented, but Some
   Follow-up Actions Are Still Necessary (Reference Number 2007-30-066, dated
   March 27, 2007).
4. Complete Actions Were Not Taken to Validate the Best Software Solution Was Chosen for the
   Private Debt Collection Program (Reference Number 2007-20-065, dated April 10, 2007).
5. Invoice Audit of Fees Paid Under the Private Debt Collection Initiative (Reference
   Number 2008-10-054, dated December 26, 2007).




                                                                                         Page 8
